                                      December 14, 2000



MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      MEMORANDUM REPORT OIG-01-A-01: THE NATIONAL
                              MATERIALS PROGRAM STEERING COMMITTEE


Attached is the Office of the Inspector General’s (OIG) memorandum report titled, The National
Materials Program Steering Committee. This report incorporates comments provided by your
office at an exit meeting held on December 7, 2000.

This report reflects results of OIG’s ongoing observation of the National Materials Program
Working Group. This group was formed to develop options for the Commission addressing
challenges related to the decreasing numbers of NRC materials licensees. During observation
of Working Group meetings, we noted that the Group’s efforts were being impeded by a lack of
understanding of its relationship with and responsibilities to an associated Steering Committee.
While the Working Group’s function was defined in a charter, the Steering Committee’s role
was undefined. To correct this difficulty, the agency should clearly define the role and
responsibilities of that Steering Committee and ensure that other steering committees define
their roles and responsibilities. Management agreed with these recommendations and has
developed a charter for the Steering Committee to address the first recommendation.

Please provide information on actions taken or planned on each of the recommendations
directed to your office within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up.

If you have any questions, please contact me at 415-5915.


Attachment: As stated


cc: John Craig, Audit Followup Official
                                      December 14, 2000



MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      MEMORANDUM REPORT OIG-01-A-01: THE NATIONAL
                              MATERIALS PROGRAM STEERING COMMITTEE


As part of the Office of the Inspector General’s (OIG) monitoring of important agency activities,
OIG staff have participated as observers in the National Materials Program Working Group.
This group was formed to develop options for addressing challenges related to the decreasing
numbers of NRC materials licensees. During observation of Working Group meetings, we
noted that the Group’s efforts were being impeded by a lack of understanding of its relationship
with and responsibilities to an associated Steering Committee. While the Working Group’s
function is defined in a charter, the Steering Committee’s role is undefined. To correct this
difficulty, the agency needs to clearly define the role and responsibilities of that Steering
Committee. The agency should also ensure that other steering committees define their roles
and responsibilities. Upcoming meetings of this Working Group are critical to its effort.
Therefore, action to correct this issue should be made in a timely manner.

BACKGROUND

Under the Atomic Energy Act of 1954 (AEA), the U.S. Atomic Energy Commission (AEC) was
given authority to regulate the use of source material, by-product material, and special nuclear
material in the United States. An amendment to the Act in 1959 allowed states to regulate the
use of such radioactive material by entering into an agreement with the AEC. In March 1962,
Kentucky became the first Agreement State. Today, the U.S. Nuclear Regulatory Commission
(NRC), a successor to AEC, has agreements in place with 32 states. As a result, NRC is
directly regulating a decreasing number of licensed users of this type of material. Issues
associated with the decreasing number of NRC materials licensees are critical to NRC and the
national regulation of these licensees. A decreasing number of NRC licensees are bearing the
burden of increasing fees to support NRC's efforts. Because of its national importance, the
Office of the Inspector General has closely monitored this issue and, more recently, has
participated through observation in the National Materials Program Working Group.
                                                          The National Materials Program Steering Committee

In combination, NRC’s program and these state programs form what can informally be
described as the national program for regulating the use of AEA-controlled materials. However,
there is no clear, formal statement of what constitutes a “national materials program” or how it
should function. In October 1999,1 NRC staff proposed that the agency establish a working
group2 to address the issues involved with defining and implementing future state and federal
roles under a National Materials Program. In particular, the working group would examine the
impact of the increasing number of Agreement States and develop options for the
Commission’s consideration. In November 1999,3 the NRC Commissioners responded to
staff’s request and approved the formation of the National Materials Program Working Group.
The Working Group is composed of members from the NRC, the Organization of Agreement
States, and the Conference of Radiation Control Program Directors.

RESULTS

In March 2000, the Working Group formally defined, in a charter, its mission, its work product,
and the issues it would consider. During that same time period, senior NRC program managers
in headquarters and Regional offices perceived the need for and established an associated
Steering Committee. While the Steering Committee was established concurrently with the
Working Group, the Steering Committee did not develop its own charter and is not discussed in
the Working Group’s charter. Working Group members have noted that the Steering
Committee has not acted collectively and that even the membership of the Committee is
unclear. Additionally, the Working Group is being relied on to respond to Steering Committee
members on an individual basis. In essence, the Steering Committee does not appear to be
operating as a cohesive body.

Shortly after the first Working Group meeting in March 2000, OIG questioned senior NRC
managers as to whether the Steering Committee should formally define its role and
responsibilities to preclude difficulties in its relationship with the Working Group. During several
Working Group meetings since March, the Working Group, itself, has raised the issue of the
role and responsibilities of the Steering Committee. The Working Group has also questioned
whether the Steering Committee would function in a fashion that would allow the Working
Group to proceed as expected by the Commission. The Working Group considered this critical
to its efforts. Several members noted that, if the role of the Steering Committee included veto
or overrule authority of its work, they would reconsider their participation in the Working Group.

At the annual Organization of Agreement States conference in October 2000, the Working
Group held a tabletop exercise to see whether its views of cooperation and consensus related
to a National Materials Program were valid. After the conference, one member of the Steering


       1
               SECY 99-250, October 14, 1999, National Materials Program: Request Approval of the Formation
               of a Working Group on the Increase in the Number of Agreement States and Impact on NRC'S
               Materials Program.
       2
               The Working Group would be established in accordance with Management Directive and
               Handbook 5.3, NRC and Agreement State Working Groups.
       3
               Staff Requirements Memorandum for SECY 99-250.

                                                    2
                                                       The National Materials Program Steering Committee

Committee met with the Working Group. The role of the Steering Committee was again raised
during a lengthy discussion about the Steering Committee’s expectations of the Working
Group. Valuable time was also expended in the subsequent Working Group meeting
discussing the role of the Steering Committee rather than focusing on the work that the group
had planned to accomplish. A Working Group meeting scheduled for December 2000 may now
be primarily dedicated to meeting with the Steering Committee to further discuss the
expectations of the Committee and the current status of the Working Group’s efforts.

CONCLUSION

While NRC does not have official guidance relating to steering committees, it has formally
defined their role in a number of internal efforts, including risk-informed licensing, probabilistic
risk assessment, cost management, and STARFIRE. The role of a steering committee can be
critical to the functioning of any associated working group and the committee’s role and
responsibilities should be clear to all parties. When a working group is associated with the
committee, the role of the committee should be defined with careful consideration of the needs
of the working group. In the case of the National Materials Program Working Group, the lack of
formal definition of the role and responsibilities of the Steering Committee has had a negative
impact on the Working Group’s functioning. As a result, valuable time has been consumed on
matters that are not central to its mission. Without a clear definition of the role of the Steering
Committee, the valuable experience and expertise of its members may be ineffectively applied
to the Working Group’s efforts.

MANAGEMENT COMMENTS AND ACTIONS ON THE DRAFT REPORT

At an exit meeting on December 7, 2000, management agreed with our recommendations and
provided comments which have been incorporated in this report. Subsequent to receipt of the
discussion draft of this report, management developed a charter for the National Materials
Program Steering Committee which has been approved by the Executive Director for
Operations. This action addresses Recommendation 1. Management also noted that, in
addition, the Office of State and Tribal Programs’ performance plan includes a review and
potential revision of MD 5.3, NRC and Agreement State Working Groups.

RECOMMENDATIONS

We recommend that the Executive Director for Operations:

1.     Clearly define the role and responsibilities of the National Materials Program Steering
       Committee. That clarification should include, for example: the committee’s mission,
       objectives, and scope; reporting relationships; the support the committee requires
       and/or will provide; its membership; who will chair the committee; the effective date and
       term of the committee; and the committee’s relationship to the Working Group.

2.     Institute a requirement in the Management Directives that agency steering committees
       formally define their roles and responsibilities.

Please provide information on actions taken or planned on each of the recommendations
directed to your office within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up.

                                                 3
                                                    The National Materials Program Steering Committee

SCOPE/CONTRIBUTORS

We evaluated the management controls related to the Working Group and Steering Committee
discussed herein and conducted our work from March through November 2000 in accordance
with generally accepted Government auditing standards. This review was conducted by
Bob Moody and Sherri Miotla.


If you have any questions or concerns regarding this report, please contact William McDowell at
415-5974 or me at 415-5915.


Attachment:
Recommendation Resolution Procedures




                                              4
                                       The National Materials Program Steering Committee

cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B. Garrick, ACNW
      D. Powers, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      S. Reiter, Acting CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      F. Miraglia, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      W. Kane, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV




                                   5
                                                           The National Materials Program Steering Committee

                   Instructions for Responding to OIG Report Recommendations

Instructions for Action Offices

Action offices should provide a written response on each recommendation within 30 days of the date of
the transmittal memorandum or letter accompanying the report. The concurrence or clearance of
appropriate offices should be shown on the response. After the initial response, responses to
subsequent OIG correspondence should be sent on a schedule agreed to with OIG.

Please ensure the response includes:

1. The report number and title, followed by each recommendation. List the recommendations by
number, repeating its text verbatim.

2. A management decision for each recommendation indicating agreement or disagreement with the
recommended action.

           a. For agreement, include corrective actions taken or planned, and actual or target dates for
              completion.

           b. For disagreement, include reasons for disagreement, and any alternative proposals for
              corrective action.

3. If questioned or unsupported costs are identified, state the amount that is determined to be
disallowed and the plan to collect the disallowed funds.

           a. If funds put to better use are identified, then state the amount that can be put to better use
              (if these amounts differ from OIG’s, state the reasons).

OIG Evaluation of Responses

If OIG concurs with a response to a recommendation, it will (1) note that a management decision has
been made, (2) identify the recommendation as resolved, and (3) track the action office’s
implementation measures until final action is accomplished and the recommendation is closed.

If OIG does not concur with the action office’s proposed corrective action, or if the action office fails to
respond to a recommendation or rejects it, OIG will identify the recommendation as unresolved (no
management decision). OIG will attempt to resolve the disagreement at the action office level.
However, if OIG determines that an impasse has been reached, it will refer the matter for adjudication to
the Chairman.

Semiannual Report to Congress

In accordance with the Inspector General Act of 1978, as amended, OIG is required to report to
Congress semiannually on April 1 and October 1 of each year, a summary of each OIG report issued for
which no management decision was made during the previous 6-month period. Heads of agencies are
required to report to Congress on significant recommendations from previous OIG reports where final
action has not been taken for more than one year from the date of management decision, together with
an explanation of delays.
